<html>
<title> - FLOODING IN THE MERCER COUNTY AND EMMONS COUNTY AREAS OF NORTH DAKOTA</title>
<body><pre>[Senate Hearing 111-694]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-694
 
 FLOODING IN THE MERCER COUNTY AND EMMONS COUNTY AREAS OF NORTH DAKOTA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    NOVEMBER 12, 2009--BISMARCK, ND

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
55-674                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>  

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
ROBERT C. BYRD, West Virginia        ROBERT F. BENNETT, Utah
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
FRANK R. LAUTENBERG, New Jersey      LAMAR ALEXANDER, Tennessee
TOM HARKIN, Iowa                     GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana
DANIEL K. INOUYE, Hawaii (ex 
    officio)

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                    Carolyn E. Apostolou (Minority)
                         Tyler Owens (Minority)

                         Administrative Support

                          Molly Barackman-Eder


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Byron L. Dorgan.....................     1
Statement of Colonel Robert J. Ruch, District Commander, Omaha 
  District, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................     3
    Prepared Statement...........................................     5
Statement of Dale L. Frink, State Engineer, North Dakota Water 
  Commission.....................................................     7
    Prepared Statement...........................................     9
Statement of Hon. Tim Volk, Mayor, City of Linton, North Dakota..     9
Statement of Glenn McCrory, Chairman, Emmons County Water 
  Resource Board.................................................    10
Statement of Sharon Jangula, Coordinator, Linton Industrial 
  Development Corporation........................................    11
Statement of Gregg Wiche, Director, North Dakota Water Science 
  Center, U.S. Geological Survey, Department of the Interior.....    13
Statement of John Phillips, Development Director, City of Beulah, 
  North Dakota...................................................    19
    Prepared Statement...........................................    22
Statement of Frank Bitterman, County Commissioner, County of 
  Mercer, North Dakota...........................................    23
Statement of Greg Lange, Secretary-Treasurer, Mercer County Water 
  Resources District.............................................    23
    Prepared Statement...........................................    25


 FLOODING IN THE MERCER COUNTY AND EMMONS COUNTY AREAS OF NORTH DAKOTA

                              ----------                              


                      THURSDAY, NOVEMBER 12, 2009

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                      Bismarck, ND.
    The subcommittee met at 10:02 a.m., at Bismarck State 
College, Energy Center Conference Room, 1500 Edwards Avenue, 
Bismarck, ND, Hon. Byron L. Dorgan (chairman) presiding.
    Present: Senator Dorgan.


              opening statement of senator byron l. dorgan


    Senator Dorgan. I'm going to call the hearing to order.
    This is a hearing of the United States Senate Energy and 
Water Development Subcommittee, which I chair. I'm Byron 
Dorgan, and with me is Roger Cockrell, who is the professional 
staffer that works on water issues all across the country. He's 
working on dredging issues in Jacksonville, Florida, and flood-
control projects in California. But, because I chair the 
subcommittee, he works mostly on North Dakota water projects.
    Well, maybe not. But, at any rate, he's very helpful on a 
wide range of water issues, and we certainly have plenty of 
water issues in North Dakota.
    To my left is Justin Schardin, who is a staff assistant 
with me, working on water and other issues.
    What I would like to do today is to have two panels to deal 
with some water issues and flooding issues here in North 
Dakota.
    The purpose of holding this hearing, similar to a hearing I 
held last evening in Bismarck, is to talk about some flooding 
events that occurred in our State and to talk about what we 
believe caused them, hear from you, and what we believe can be 
helpful in addressing them.
    I want to mention as well, that Cathy Schneider is here 
from Senator Conrad's office, in the back of the room, Cathy, 
thank you for being here.
    Ross Keys is also here, from Congressman Pomeroy's office, 
over on that side of the room and both Kent and Earl work 
closely on these issues with me.
    As I said, I do have the privilege of chairing the panel in 
the United States Senate that funds all of our water and energy 
issues across the country. We certainly have plenty of water 
challenges this last spring in North Dakota. Most of you know 
that we have spent a lot of time in the Red River Valley with a 
major population center of Fargo and Moorhead, working on flood 
control issues. First, fighting a flood that became, very 
nearly, a real disaster in which a substantial part of a major 
community would have had to have been evacuated. They fought 
that flood to a standstill, and it was a close call, but they 
got through it.
    Now, we're working on a permanent flood-control project for 
that part of the Red River, and also working on broader Red 
River issues. But, as I have indicated to them, flood control 
is a bottom-up process. We are now waiting for the Fargo and 
the Moorhead and Cass and Clay County folks to come together 
and decide what kind of a project they think that they would 
want to have, using the technical capability of the Corps of 
Engineers to evaluate and score projects. Because, a project of 
the--a flood-control project that's going to have Federal 
participation is a project that has to meet three tests:
    It has to be technically sound. That is, it has to be 
buildable. And, upon completion, it has to be operable by a 
non-Federal entity.
    No. 2, it has to be environmentally sustainable. That means 
the project design must ensure that the environment of the 
impacted area is not degraded by the construction of the 
project, or, if it is, that damages are mitigated.
    Three, the project has to be financially viable.
    All of that determines whether there would be Federal 
participation. You have to meet a cost-benefit ratio of 1.0. 
Following all of that, the local selection and the judgment 
that this meets the test, that there's a Federal interest, then 
the Federal Government pays 65 percent of a project.
    Now, following the flooding this spring, and the amount of 
time we spent in the Fargo-Moorhead area, in the Red River 
Valley, we also have initiated a reconnaissance study on the 
Sheyenne River system. We also initiated a reconnaissance study 
on the James River system. Both studies will try to determine 
what happened in those river systems. The flooding in Valley 
City which you know is chronic--but, not just Valley City; up 
and down the Sheyenne. Also the flooding on the James River was 
very significant.
    The areas that we have not yet had information on at a 
hearing or a factfinding mechanism was, what happened in 
Bismarck? Why? What might be done to make sure--or try to find 
a way to make sure that doesn't happen again? What happened in 
Mercer County, and what happened in Emmons County, down in the 
Linton area? Up in Beulah, Hazen, Stanton, substantial flash 
flooding that was very, very significant, and flooding in 
Emmons County, in the Linton area, was very significant.
    So, today what we wanted to do--this is a long introduction 
to saying--what I wanted to do is make sure we get on the 
record an evaluation with the Corps of Engineers, with Dale 
Frink representing the State Water Commission, with the local 
folks from Emmons County, and then the folks from Mercer 
County. What happened? What do we think caused it? What kinds 
of approaches might be desired by local government officials to 
try to evaluate what could be constructed or what devices might 
be implemented to reduce the chance of that happening again?
    Everyone in this room who's been a part of this understands 
that there's no merit or value of any way in having to come 
through a flood fight. When a flood visits your area, it's an 
unbelievable, devastating occurrence, costs a lot of money, 
injures a lot of people and their property. I remember being in 
Lincoln one evening and seeing the pictures of the men who lost 
the cattle, unbelievable pictures. I mean, I still remember 
vividly the water that shoved cows up in the front of the car 
in a garage, laying back-side-up with feet in the air. You 
know, and that person lost a substantial amount of a cattle 
herd.
    So, we're here to discuss all of this, again, in the 
context of State-wide officials at the State Water Commission 
and the Corps of Engineers.
    The first discussion we will have today will be with the 
folks from Emmons County.
    Emmons County today is represented by the Mayor of Linton, 
Tim Volk.
    Tim, it's nice to see you again. Thank you for being here.
    Glenn McCrory, the chairman of the Emmons County Water 
Resource Board, Glenn, thank you for being with us.
    Sharon Jangula, the coordinator of the Linton Industrial 
Development Corporation.
    And, Sharon, welcome to you.
    I'm going to begin, first, by asking Colonel Ruch, from the 
Omaha Corps of Engineers, to speak. Then I will ask Dale Frink, 
State Water Commission, and then we will recognize Mayor Volk, 
Mr. McCrory, and Ms. Jangula.
    Colonel, thank you for being with us and why don't you 
proceed.

STATEMENT OF COLONEL ROBERT J. RUCH, DISTRICT 
            COMMANDER, OMAHA DISTRICT, CORPS OF 
            ENGINEERS--CIVIL, DEPARTMENT OF THE ARMY, 
            DEPARTMENT OF DEFENSE--CIVIL
    Colonel Ruch. Chairman Dorgan, my name is Colonel Robert J. 
Ruch. I'm the Commander of the Omaha District for the U.S. Army 
Corps of Engineers. Thank you for the opportunity to testify 
today on the 2009 flooding in central and southeastern North 
Dakota.
    I want to assure you that the emergency operations and 
disaster response are of the upmost importance to the Corps of 
Engineers. It was identified by the Chief of Engineers as our 
No. 1 campaign goal, and we stand ready to respond, in a 
moment's notice, to contingency operations worldwide, including 
natural disasters, as well as combat and stabilizing 
operations.
    I'd like to give a brief rundown on the conditions leading 
to this year's flooding, how the Corps responded to requests 
for assistance, and a summary of post-flood coordination, which 
is still ongoing.
    This year's flooding in North Dakota was the direct result 
of historic snow over the winter of 2008 and 2009. Many 
communities in the central part of the State, including the 
area around Bismarck, recorded more than 100 inches of snow. 
Rain melting, exasperated by spring rains, resulted in 
widespread flooding on the Missouri River, the Knife River, the 
Cannonball, and Beaver Creek, as well as many other streams and 
tributaries.
    With forecasts for a high tributary runoff below Garrison 
Dam, the Missouri River Water Management Office in Omaha began 
close coordination with the State of North Dakota and the many 
managers from water intakes, powerplants, and other interests 
along the river upstream from Bismarck.
    A substantial ice jam in the Missouri River, south of 
Bismarck, on March 23, 2009, prompted requests for Corps 
technical assistance. We deployed ice jam experts from both the 
Omaha District and the Cold Regions Research and Engineering 
Laboratory in Hanover, New Hampshire, to advise North Dakota 
emergency management officers on blasting the jam and other 
measures to relieve flooding.
    Concurrently, another significant jam formed upstream from 
Bismarck, raising concerns that this jam could break free and 
move downstream to join the other one. To alleviate the threat, 
the Corps collaborated with the State to make the unprecedented 
decision to cut all releases from the Garrison Dam while the 
downstream jam was blasted and allowed to break up.
    One hundred miles east of Bismarck, rapid snowmelt, 
exasperated by spring rains, resulted in projected runoffs in 
the James River in excess of the 1997 record pool elevation of 
both the Pipestem and Jamestown reservoirs.
    As engineers from the Corps, Bureau of Reclamation and the 
National Weather Service analyzed melt and runoff scenarios, 
the forecast predicted that both dams would see elevations 
which would overtop the spillway crests, resulting in 
unregulated releases downstream and the potential for 
significant flooding.
    Through early coordination with the State, the city of 
Jamestown, and other communities, North Dakota officially 
requested assistance from the Corps in early March. In 
response, we constructed advance measures in Jamestown, 
LaMoure, and Ludden. These measures consisted of temporary 
levees and flood walls, interior drainage pumps, and 24-hour 
surveillance and monitoring of both dams.
    The event lasted 133 days. Overall, Omaha District 
committed 177 personnel and expended $7.7 million in emergency 
funding, $2.4 million in FEMA debris funding, constructed 4.5 
miles of temporary levees and flood walls in Jamestown and 
4,600 feet of temporary structures in LaMoure. Homes and 
businesses in Jamestown and LaMoure were not flooded.
    As the reservoirs dropped and the James River receded, 
personnel from our Garrison and Oahe projects were instrumental 
in opening the lines of communications regarding Corps 
authorities and programs, which could address flood risks on a 
long-term basis. The Corps has an array of authorities and 
programs that may assist local communities with addressing 
flood risks. As a result of this year's flooding, the Omaha 
District has received numerous requests from communities in 
North Dakota: Jamestown, Stutsman County, Emmons County, and 
Mercer County. We have initiated coordination meetings with 
these communities and have already conducted site visits to a 
few with more scheduled in the weeks to come.
    Also, the State of North Dakota, FEMA, and the Corps have 
been developing a charter to establish a Silver Jackets Program 
for the State. The Silver Jackets Program will establish a 
coordinating committee to help maintain communications and 
serve as a clearinghouse for prioritizing activities among the 
various agencies.
    I want to commend the State for taking this initiative. I 
believe that the visibility that comes with Silver Jackets 
designation will position the various projects within the State 
to better compete for limited State and Federal resources.
    The Energy and Water Developmental Appropriations Act of 
2010 includes $150,000 for the upper James River, as you 
discussed. We will soon begin coordination with State and local 
officials to decide how best to proceed on this study.
    Also in the James River, the Corps allocated $127,000 from 
the American Recovery and Reinvestment Act funding, which has 
been used to develop a new hydrologic forecasting model for the 
James, upstream from the Jamestown and Pipestem dams and 
downstream from LaMoure.
    The Dam Safety Program has received funding for detailed 
topographic mapping of the shorelines of the two reservoirs and 
along the entire James River flood plain, from the dams 
downstream to the North Dakota/South Dakota State line. New 
mapping is scheduled for acquisition this fall, with final 
delivery of the maps in June 2010.
    In addition, we continue to work with the North Dakota Task 
Force on Missouri River Initiatives. Under that authority, we 
completed an assessment report this past June to help identify 
sedimentation issues and concerns along the Missouri River. 
We're currently working with the Task Force Development Plan 
for moving forward with these projects.
    Finally, on October 1, 2009, we initiated a new study to 
reexamine the original authorized purposes of the Flood Control 
Act of 1944, also known as the Pick-Sloan Plan. The study was 
authorized by section 108 of the Omnibus Appropriations Act of 
2009 and anticipated to cost of $25 million to complete. The 
overall purpose of this study is to ``review the original 
project purposes based on the Flood Control Act of 1944, to 
determine if changes to the authorized project purposes and 
existing Federal water resource infrastructure may be 
warranted.''


                           PREPARED STATEMENT


    We are currently developing a project management plan and 
are in the midst of collecting preliminary stakeholder and 
public input on the engagement strategy in order to develop a 
comprehensive public involvement plan. Formal scoping of the 
project is scheduled to commence in April 2010. This study will 
be a major Corps undertaking, co-led by Omaha and Kansas City 
Districts, and we plan to work with State, local, tribal, and 
public interests throughout its duration.
    Chairman Dorgan, I appreciate the opportunity to be here 
today, and I look forward to any questions than we can answer 
today.
    Thank you.
    [The statement follows:]

              Prepared Statement of Colonel Robert J. Ruch

    Chairman Dorgan, my name is Colonel Robert J. Ruch, Commander of 
the Omaha District, U.S. Army Corps of Engineers. Thank you for the 
opportunity to testify today on the 2009 flooding in central and 
southeastern North Dakota.
    I want to assure you that emergency operations and disaster 
response are of upmost importance to the Corps of Engineers. It was 
identified by the Chief of Engineers as our No. 1 Campaign Goal, and we 
stand ready to respond on a moments notice to contingency operations 
worldwide in support of natural disasters as well as combat and 
stabilizing operations.
    I would like to give a brief rundown of the conditions leading to 
this year's floods, how the Corps responded to requests for assistance, 
and a summary of post flood coordination.
    This year's flooding in North Dakota was a direct result of 
historic snow over the winter of 2008-2009. Many communities in the 
central part of the State, including Bismarck, recorded more than 100 
inches of snow.
    Rapid melting, exacerbated by spring rains, resulted in widespread 
flooding on the Missouri River, the Knife River, Cannonball River, and 
Beaver Creek as well as many other streams and tributaries. With 
forecasts for high tributary runoff below Garrison Dam, the Missouri 
River Water Management Office in Omaha began close coordination with 
the State of North Dakota and managers of water supply intakes, power 
plants, and other interests along the river upstream from Bismarck.
    A substantial ice jam in the Missouri River south of Bismarck on 
March 23, 2009 prompted a request for Corps technical assistance. We 
deployed ice jam experts from both the Omaha District and the Cold 
Regions Research and Engineering Laboratory in Hanover, New Hampshire 
to advise North Dakota Emergency Management officers on blasting the 
jam and other measures to relieve flooding.
    Concurrently, another significant jam formed upstream from 
Bismarck, raising concerns that this jam could break free and move 
downstream to join the other one. To alleviate the threat, the Corps 
collaborated with the State to make the unprecedented decision to cut 
all releases from Garrison Dam while the downstream jam was blasted and 
allowed to break up.
    A hundred miles east of Bismarck, rapid snow melt, exacerbated by 
spring rains, resulted in projected runoff in the James River in excess 
of the 1997 record pool elevations of both Pipestem and Jamestown 
Reservoirs. As engineers from the Corps, Bureau of Reclamation, and 
National Weather Service analyzed melt and runoff scenarios, the 
forecasts predicted that both dams could see elevations, which would 
overtop their spillway crests resulting in unregulated releases 
downstream and the potential for significant flooding.
    Through early coordination with the State, city of Jamestown, and 
other communities, North Dakota officially requested assistance from 
the Corps in early March. In response, we constructed Advanced Measures 
in Jamestown, LaMoure, and Ludden. These measures consisted of 
temporary levees and floodwalls, interior drainage pumps, and 24-hour 
surveillance and monitoring on both dams.
    Forecasts for combined releases from both reservoirs were projected 
to exceed 4,000 cubic feet per second (cfs), more than double the 
record of 1,800 cfs set during the 1997 event. Releases were gradually 
increased up to a maximum of 3,200 cfs in late April. They were held 
steady at that level due to serious infiltration problems with the 
city's sewer system at higher levels.
    Releases remained at the 3,200 cfs level for approximately a month 
and then were gradually reduced back to normal levels. After the flood 
threat had passed and the reservoirs were sufficiently drawn back to 
more normal levels, all the temporary measures were removed. Reservoir 
storage evacuation was completed by late August.
    The event lasted 133 days. Overall, Omaha District committed 177 
personnel and expended $7.7 million in emergency funding, $2.4 million 
in FEMA debris funding, constructed 4.5 miles of temporary levees and 
floodwalls in Jamestown and 4,600 feet of temporary structures in 
LaMoure. We deployed more than 1.35 million sandbags, 10 pumps, and 232 
rolls of plastic sheeting, as well as 14,000 feet of Hesco Bastions, 
3,300 feet of Rapid Deployable Floodwall, and 1,250 linear feet of 
Portadam products. These efforts prevented an estimated $70 million in 
damages.
    Homes and business in Jamestown and LaMoure were not flooded.
    As the reservoirs dropped and the James River receded, personnel 
from our Garrison and Oahe projects were instrumental in opening the 
lines of communications regarding Corps authorities and programs, which 
could address flood risks on a long-term basis. The Corps has an array 
of authorities and programs that may assist local communities with 
addressing flood risks. As a result of this year's flooding, the Omaha 
District has received numerous requests from communities in North 
Dakota (Jamestown, Stutsman County, Emmons County and Mercer County). 
We have initiated coordination meetings with these communities and have 
already conducted site visits to a few with more scheduled in the weeks 
to come.
    Also the State of North Dakota, FEMA, and the Corps have been 
developing a charter to establish a Silver Jackets Program for the 
State. The Silver Jackets Program will establish a coordinating 
committee to help maintain communications and serve as a clearinghouse 
for prioritizing activities among the various agencies. I want to 
commend the State for taking this initiative. I believe that the 
visibility that comes with Silver Jackets designation will position the 
various projects within the State to better compete for limited State 
and Federal resources.
    The Energy and Water Development Appropriations Act of 2010 
includes $150,000 for the Upper James River. We will soon begin 
coordination with State and local officials to decide how best to 
proceed with the study.
    Also on the James River, the Corps allocated $127,000 from the 
American Recovery and Reinvestment Act funding, which has been used to 
develop a new hydrologic forecasting model for the James River upstream 
from the Jamestown and Pipestem Dams and downstream to LaMoure.
    The dam safety program has received funding for detailed 
topographic mapping of the shorelines of the two reservoirs and along 
the entire James River floodplain from the dams downstream to the North 
Dakota-South Dakota State line. The new mapping is scheduled for 
acquisition this fall with final delivery of the maps in June 2010.
    In addition, we continue to work with the North Dakota Task Force 
on Missouri River Restoration initiatives. Under that authority we 
completed an Assessment Report this past June to help identify 
sedimentation issues and concerns along the Missouri River. We are 
currently working with the Task Force to develop a plan for moving 
forward with projects.
    Finally, on October 1, 2009 we initiated a new study to re-examine 
the original authorized purposes (Missouri River) of the Flood Control 
Act of 1944 also known as the Pick-Sloan Plan. The study was authorized 
by section 108 of the Omnibus Appropriations Act of 2009 and is 
anticipated to cost $25 million to complete. The overall purpose of the 
study is to ``review the original project purposes based on the Flood 
Control Act of 1944 . . . to determine if changes to the authorized 
project purposes and existing Federal water resource infrastructure may 
be warranted.'' We are currently developing a Project Management Plan, 
and are in the midst of collecting preliminary stakeholder and public 
input on engagement strategies in order to develop a comprehensive 
public involvement plan. Formal scoping of the project is scheduled to 
commence in April 2010. This study will be a major Corps undertaking, 
co-led by Omaha and Kansas City Districts, and we plan to work with 
State, local, tribal, and public interests throughout its duration.
    Chairman Dorgan, I appreciate the opportunity to be here today and 
I will be happy to answer any questions you may have.

    Senator Dorgan. Colonel Ruch, thank you very much.
    You have given an overview of flooding, and you indicate 
you have initiated coordination meetings with a number of 
communities, including communities in Emmons County and Mercer 
Counties, so I want to ask questions about that. We'll ask you 
stay here, as we will Mr. Frink, while we have the other 
community up, as well, because I want to be asking questions of 
you.
    Let me also say that the section 108--the authorized 
purposes--that's my legislation that I got passed and I'm going 
to fund it. That study, I hope, is going to change the way we 
manage the Missouri River--to have a modern management 
capability that reflects the realities of the river, rather 
than the 1940 projections of the river.
    Let me call on Dale Frink, the State engineer who 
represents the State Water Commission.
    Mr. Frink.

STATEMENT OF DALE L. FRINK, STATE ENGINEER, NORTH 
            DAKOTA WATER COMMISSION
    Mr. Frink. Thank you, Chairman Dorgan. And thank you for 
the opportunity to discuss issues.
    I'm going to start with Emmons County. And, you know, last 
spring's flooding event wreaked havoc in almost every corner of 
the State. And Emmons County, and particularly the city of 
Linton, was one of the most severe areas hit by flooding in the 
State. In fact, Linton, last year, in 2009, had houses that had 
been built in the early 1900s, that had never been flooded, and 
they were just about demolished this year.
    Since the flood, the State of North Dakota has been very 
involved in Emmons County. The Water Commission and the Emmons 
County Water Resource District have a study underway to look at 
the overall flooding issue and to evaluate possible alternative 
solutions.
    Working on flooding issues in a rural area is very 
different than working on issues in large cities like Fargo and 
Grand Forks. Federal projects require positive risk-benefit 
cost ratio, and this is often problematic in a rural setting. 
Relocating homes and structures out of the flood plain is often 
the best solution, but there are even issues with this in small 
cities.
    Real estate values are lower in small towns, and often 
these values are considerably lower than the replacement value 
of a home. For example, an older home may have a market value 
of $50,000, but it may have a replacement value--to replace it, 
it might be over $100,000. And this is especially a concern 
with somebody on a fixed income. And so, even if you give them 
the full market value, they still are way short of actually 
coming up with a new house.
    Also, special assessments are a concern. And who pays these 
special assessments, if they exist, once a house is moved?
    The Corps of Engineers and State Water Commission are 
evaluating several structural measures. Basement storage is 
being evaluated for both cost and feasibility.
    Spring Creek and Beaver Creek also have considerable 
obstructions in the channel that need to be removed. Sand Creek 
broke out of its bank and caused severe erosion, which needs a 
solution.
    We are working, at the U.S. Geological Survey and the 
National Weather Service, on improving flood forecasting on 
Beaver Creek.
    While we had a very large snowpack in 2009, we did not 
expect the severe flooding that occurred. I believe that during 
a large flood year, it's easy for agencies to concentrate on 
large cities and overlook some of the smaller cities. The State 
Water Commission is working with the U.S. Geological Survey to 
install two new stream gauges in the Beaver Creek watershed 
that can be used by the National Weather Service to more 
accurately forecast flooding and to provide an early warning to 
the residents.
    And last--and I think Colonel Ruch talked about this, and 
I'd like to talk a little bit about the new Silver Jackets 
Program. This afternoon, the State Water Commission will be 
asked to partially fund a new temporary position for this 
program. We have also asked the State Division of Emergency 
Services and the FEMA to help fund this program.
    The basic concept of Silver Jackets is to bring Federal, 
State, and local entities together to improve communications 
for managing natural disasters and work on implementation of 
the solutions.
    The two main Federal agencies are the Corps and FEMA. But, 
other Federal agencies, like the USGS, the National Weather 
Service, and the National Resources Conservation Service, can 
become part of the process.
    The two main State agencies will be the State Water 
Commission and the Division of Emergency Services. And I might 
add that the Division of Emergency Services is a Division of 
the National Guard. So, we've got the tie there. But, we also 
can bring in other State agencies, like the department of 
transportation.

                           PREPARED STATEMENT

    The purpose of the new position is to provide a single 
point of contact for communities that are looking for help in a 
flood-related problem. Once we receive a request from the 
community, we will try and form a team of agencies that can 
best move the project forward.
    So, thank you, for holding this hearing. I look forward to 
working with you on these important issues.
    [The statement follows:]

                  Prepared Statement of Dale L. Frink

    Chairman Dorgan, thank you for the opportunity to discuss flooding 
issues in Mercer County. Last spring's flooding events wreaked havoc in 
almost every corner of the State. The Knife River watershed was one of 
the most severe areas hit by flooding.
    The Corps of Engineers is taking the lead in Mercer County and they 
are in the process of initiating a watershed study with the State Water 
Commission being actively involved throughout the process. Any 
alternative that moves forward will require non-Federal dollars and the 
State Water Commission can consider these requests.
    The State Water Commission can also work with local sponsors on 
alternatives that do not meet Federal requirements. Upstream storage is 
an example of a project that seems to have difficulty meeting Federal 
feasibility requirements in a rural setting. Relocating structures out 
of the floodplain and should be evaluated.
    As was the situation with Emmons County, there is room for 
improvement regarding flood forecasting in the rural areas. While we 
had a significant snowpack in the Knife River basin, we certainly were 
not expecting the severity of flooding that actually occurred. Stream 
gages are operated by the U.S. Geological Survey and the State Water 
Commission will work with the USGS and the National Weather Service to 
evaluate the need for more gages to improve flood forecasting.
    Last, I would like to mention a new program that is being set up 
called the Silver Jackets. This afternoon, the State Water Commission 
will be asked to partially fund a new temporary position for this 
program. We have also asked the State Division of Emergency Services 
and FEMA to help fund this program. The basic concept behind the Silver 
Jackets program is to bring Federal, State, and local entities together 
to improve communications for managing natural disasters and to work on 
implementation of solutions. The two main Federal agencies are the 
Corps of Engineers and FEMA, but other Federal agencies like the U.S. 
Geological Survey, the National Weather Service, and the Natural 
Resources Conservation Service can become part of the process. The two 
main State agencies will be the State Water Commission and the Division 
of Emergency Services but we can call on other State agencies for 
assistance. The purpose of the new position is to provide a single 
point of contact for those communities that are looking for help with 
their flood-related problems. Once we receive a request for assistance, 
we will form a team of agencies that can best move a project forward.
    In closing, thank you for holding this hearing. I look forward to 
working with you on these important issues.

    Senator Dorgan. Mr. Frink, thank you very much.
    Next, we will hear from the Mayor of Linton, Tim Volk.
    Mr. Volk.
    Can I mention to you, Mayor, that I mentioned the vivid 
imagery of dead cattle, but I also saw the imagery of homes 
that were destroyed, and that there as a significant part of 
your community in whose property was ravaged. So, that's also a 
part of my memory.
STATEMENT OF HON. TIM VOLK, MAYOR, CITY OF LINTON, 
            NORTH DAKOTA
    Mr. Volk. Well, thank you, Senator Dorgan.
    It's true, it started--say, in February, we started getting 
some rain, which is unusually un-normal, and then the snow 
pack, and, as it started melting from--the day that flooding 
occurred, on that Sunday morning, we were in church, and she 
started hailing and raining and everything. It was 
unpredictable how fast the water came up and like Dale is 
expressing for us to have some way of finding out when the 
water's going to rise in Beaver Creek could help, but it came 
up at an alarming rate.
    And I have some statistics from route I'll share. And 
Glenn, here, has some other stuff for the county and the people 
in town.
    You know, looking back at pictures, from back in the 1950s, 
where Linton had some flooding, it's not even close to what 
happened this time, so.
    Senator Dorgan. All right. Well, I'll have some questions, 
Mr. Mayor.
    Mr. Volk. Okay.
    Senator Dorgan. And if we hear from Glenn and Sharon----
    Mr. Volk. Okay.
    Senator Dorgan [continuing]. We'll ask some questions.

STATEMENT OF GLENN McCRORY, CHAIRMAN, EMMONS COUNTY 
            WATER RESOURCE BOARD
    Mr. McCrory. Thank you, Senator, for holding the hearing.
    I've said--I'm beginning to feel a little bit like the Red 
River, because, you know, we've been asking you to help us get 
water throughout Emmons Country for the drinking water, and now 
we're asking you for flood help. So, we're kind of like, in 
this order, the Red River Valley, in some ways.
    But, I just wanted to--a few things I wanted to comment on. 
There's about 665 square miles of drainage area east of Linton. 
There's 700-and-some total in the Beaver Creek area. But, east 
of Linton, there are about 665. I've seen different figures on 
that, but it's in that range.
    Now, I called the USGS recently to find out what they 
thought actually the discharge was through Linton. And they've 
been working on this. They get their initial readouts, but then 
they have formulas they've got to go through and stuff. Anyway, 
the guy told me that they figure there was 20,000 cfs going 
through there at high tide.
    Now, I want you to think about something. In Monday's paper 
and Tuesday's paper, I looked at the releases from the Garrison 
Dam. They were at 12,500 cfs. So, if you look--could go--if it 
wasn't so foggy out, you'd go over to the top of the hill, 
here, and look at the what's water, going by Bismarck, here. Of 
course, I know there's some water coming in off the tributaries 
to the north yet. But, basically, we were at one and a half 
times what's going down the Missouri River right now, at the 
high flow, going through there, if those figures are all right. 
So, that's quite a shock. Of course, it only--you know, this 
comes in every day, every day, but that will only last for 2 or 
3 days, and then it starts to drop off.
    Now, the channel capacity, according to some of the old 
records I've read, is about 2,500 cfs. So, once it started 
flooding, we went up to 20,000. So, that's just a tremendous 
amount of water to try to deal with, you know.
    Spring Creek is about 1,250 cfs before it comes out of its 
banks.
    So, anyway, I want to thank the State Water Commission, for 
coming in on this hydrologic study. Hopefully, we're going to 
get some answers to it. We're fighting Mother Nature there, and 
it's just a tough deal, because, if you look at the flood plain 
there--on the south side of Linton, you go can go right up the 
big hills, so that--the flood plain itself is in Old Town. And 
trying to get the top off of some of that water so that doesn't 
get flooded so bad down there is a real challenge. There's been 
studies done in the past that--the 1967 study that the Corps of 
Engineers did, I think they had that pegged at 22,000 csf--
would have been the banks, and whatever, that they proposed. 
And so, we'd have been awful close to the top of that--right?
    Now, there's one other question that I want people to think 
about. When it started flooding there in Linton, Sunday and 
Monday, and then it cooled off and they got a second shot in 
there. My dad used to call it ``Chinook winds.'' If we'd have 
had a Chinook wind in there, all that snow that was laying up 
in those upper regions would have kept on a coming, I wonder 
how high it could have gotten. So, it's really something, to 
think about.
    And so, those are the main points.
    USGS moved their stream-gauge station, in 1989, from just 
south of Linton, on 83, to west of Linton, by the Golf Course 
Road. So, we're kind of comparing apples to oranges, because 
where it's at now takes in most of Spring Creek and Beaver 
Creek. Where it was before, it was just Beaver Creek flows.
    So, the 1952, which we had considered the flood of record 
before this, they had pegged at 9,800 cfs, without Spring Creek 
in there. Well, here we're at 20--if that figure of 20,000 is a 
solid number, we're at almost double.
    And so, anyway, at least now, if we get a couple more 
upstream from it, it should help us figure out just what 
happened, where it came from and how it went.
    So, that's about all I have to say now. I'd be happy to 
answer any questions.
    Again, I want to thank you.
    Senator Dorgan. Mr. McCrory, thank you very much.
    Finally, we'll hear from Sharon Jangula.
    Sharon.

STATEMENT OF SHARON JANGULA, COORDINATOR, LINTON 
            INDUSTRIAL DEVELOPMENT CORPORATION
    Ms. Jangula. Good morning, Senator Dorgan.
    During the morning hours of Sunday, March 22, as many of us 
were attending church services or relaxing in our homes, we 
could hear the thunder, rain, and hail outside. We were unaware 
of the battle we were about to encounter with Mother Nature and 
the resulting devastation which would forever change the lives 
of many. Within hours, we were fighting the worst flood of 
recorded history.
    Spring Creek overflowed its banks to the north of Linton, 
and Beaver Creek overflowed its banks to the east and south of 
the city. These two creeks merge on the west side of Linton. As 
it is the original part of town, it is commonly referred to as 
Old Town. By Sunday afternoon, people were being advised to 
evacuate Old Town. By Sunday evening, U.S. Highway 83 was 
closed, as it was inundated with water on the north and the 
south sides of the city. Beaver Creek rose 13 feet in 2 days; 8 
feet on Sunday and 5 feet on Monday. There was virtually no 
advance warning and we simply did not have time to prepare for 
such floodwaters.
    Beaver Creek crested at 18.83 feet, which is 3\1/2\ feet 
higher than the previous recorded reading, and 9 feet above 
flood stage.
    At the previous record of 15.34 feet, Sampson Avenue will 
flood and homes on the south side of Sampson Avenue will 
receive some flooding in their basement, mostly from water 
seepage. We prepared--we were prepared for this type of floods, 
but not the magnitude of floodwaters that we received. Most 
every street and avenue in Old Town flooded.
    In the Linton area, approximately 100 homes were evacuated; 
98 homes received damage. And this represents about 15 percent 
of all our homes in the area.
    There was also a tremendous amount of overland flooding in 
Emmons County. Approximately 700 miles of roads, 20 bridges, 
and 1,000 culverts were damaged. There were 300 miles of fence 
washed away, and over 200 head of livestock killed.
    Flood recovery has been a daunting and sometimes 
overwhelming task. In May 2009, with the assistance of the 
North Dakota State Flood Recovery Office, the local leadership 
formed the Linton-Emmons County Flood Recovery Task Force. Our 
task force has representation from Emmons County Water Resource 
Board, Emmons County Commission, Linton City Council, North 
Dakota State Flood Recovery Office, North Dakota Division of 
Emergency Services, North Dakota State Water Commission, FEMA 
public assistance, FEMA individual assistance, and FEMA 
mitigation.
    Through June and July, we held weekly task force meetings 
and biweekly meetings through the months of August through 
October. Our meetings have been attended by representatives of 
our congressional delegation as well as other State and Federal 
entities.
    The task force has played a major role in our flood 
recovery. Through their efforts, we will now have gauges in 
place to better forecast the amount of water which will flow 
through the Linton area. This should provide us ample time to 
build the emergency dike that we have planned for. They have 
supported us in our mitigation efforts and in our planning for 
the future. However, we have a very long way to go.
    The face of our community has been forever changed by the 
flood of 2009. Some of our families have chosen to move away 
from the Linton area; other families are still faced with the 
heart-wrenching decision of whether or not they should leave 
their homes and relocate to an area where they should be safe 
from floodwaters. Five homes have been demolished, and four 
more are scheduled to be demolished shortly. Approximately 12 
homes are substantially damaged and will not be repaired. The 
local leadership is challenged with the housing shortage that 
has been created by the flood and the potential buyouts of 
homes eligible for the acquisition program.
    How do we protect or minimize the risk of damage to the 
remaining 15 to 20 percent of our homes and businesses still in 
the flood plain? Is a permanent dike the answer? Is it 
feasible? Can we afford to relocate up to 15 percent of our 
homes into a new development? We need to research the options 
of potential funding sources available to us, and this is where 
we ask your assistance and your help.
    Thank you so much for your time and allowing me to testify 
before you today.
    Senator Dorgan. Ms. Jangula, thank you very much for being 
here.
    I have a number of questions. First of all, my 
understanding is that discussions are underway to put in two 
additional stream gauges upstream on Beaver Creek. I wonder: 
what the status of that work is. Will that be helpful, and, if 
so, how much assistance will these gauges provide in predicting 
future flooding? Can someone respond to that?
    Voice. It's going to happen--Gregg Wiche, with the U.S. 
Geological Survey, is in the room.
    Gregg, it's going to happen, right?

STATEMENT OF GREGG WICHE, DIRECTOR, NORTH DAKOTA WATER 
            SCIENCE CENTER, U.S. GEOLOGICAL SURVEY, 
            DEPARTMENT OF THE INTERIOR
    Mr. Wiche. Yes. The gauges have been sited, and they'll be 
installed, and so they'll be in place and operational next 
spring.
    Senator Dorgan. Is it your assessment that the placing of 
these additional gauges will be measurably helpful to predict 
flooding?
    Mr. Wiche. Yes. I mean, we looked for good sites for 
measuring, as well as talked to the river forecast center, to 
try and get enough of the basin to be of help, so we're working 
with National Weather Service forecasters.
    Senator Dorgan. All right. Let me ask a general question 
first.
    Thank you very much.
    You know, I am used to news reports, particularly in the 
Washington, DC, area, of flash flooding in West Virginia in the 
hill country, where you have a massive rainfall in a short 
period, and the creeks rise, and there's flash flooding. Some 
of it can be very, very significant. But, flash flooding in 
North Dakota, the kind of flooding you're describing, is where 
you are sitting in church, with no inkling at all of potential 
flooding, and you hear rainfall and hail, and all of a sudden 
water gushes through your town.
    So, maybe, Dale Frink, you could describe to me--they're 
describing a circumstance with no warning. I mean tell me, how? 
I mean, that just seems strange to me that there wasn't some 
notion, someplace, that something bad was going to happen.
    Mr. Frink. Well, Mr. Chairman, you know, the forecasting is 
done by the National Weather Service through their River 
Forecasting Center. But, flash flooding in North Dakota is 
uncommon, but it does occur. The Little Missouri, for example, 
is probably the flashiest river that we have. But, what 
happened here is that the rain occurred on frozen ground, and 
that's really what caused the flash flooding.
    Senator Dorgan. Was there a quick warming? The Bismarck 
discussion last evening was about a massive snowfall and then 
rapid warming. I mean, is that what filled Beaver and so on?
    Mr. Frink. Well, when it rains, the rain is above freezing, 
and so, that melts a lot of snow. So, you not only pick up the 
rain that falls, but you melt a lot of the snowpack at the same 
time. And then it's all on frozen ground, so all of it runs 
off. And you don't have a lot of wetlands in that particular 
area, so you get a very, very quick release of that water. And 
that's what happened. And it's just not fortunate. But, it does 
happen--not frequently, but it does happen in North Dakota.
    Senator Dorgan. Now, you have a Flood Recovery Task Force, 
which I know is describing a series of things for recovery. 
Often it takes a long time for families whose homes have been 
devastated, to recover from this; and so, too, a small 
community. Is there, in this same task force, a notion of what 
kind of protection might be needed, and what kind of additional 
protection might be available that you are working with the 
State or the Corps of Engineers? Can someone describe that? 
What is the search, or what mechanism is used to search, for 
additional protection devices, in the event that this would 
threaten to happen again?
    Colonel Ruch. I could speak a little bit to the past 
studies, just to shed some light on what has been done in the 
past, and then where we are right now.
    Senator Dorgan. And someone just mentioned a hydrologic 
study. Who's doing the hydrologic study?
    [Mr. Frink raised his hand responding to the Senator's 
question.]
    Senator Dorgan. You are. Okay.
    Colonel Ruch. Okay. There was Beaver and Spring Creeks, in 
Linton, a section 205 project. The project report was completed 
in 1967. In that report, we came out with a recommendation for 
a levee and a cutoff project, with a BC ratio of 1.03. That 
project was approved in September 1967, but there were 
problems--the sponsor had problems with the acquisitions of 
real estate that was actually required to build that project. 
And the funding ended up being revoked in 1971. There was a 
follow-on section 205 study in January 1985, where we did not 
come up with feasible alternatives.
    Senator Dorgan. Why would there not have been the same 
feasible alternatives in 1985 that there were in 1967?
    Colonel Ruch. Without having read it, I will tell you that 
it may have been because we knew that there were land 
acquisition problems so it was not a buildable project, as you 
alluded to----
    Senator Dorgan. I see.
    Colonel Ruch [continuing]. In the beginning.
    Senator Dorgan. All right.
    Colonel Ruch. Omaha District staff met with State and local 
officials in the city of Linton on October 15, 2009, visited 
the affected areas, and had some discussions. The 
recommendation was section 22. Section 22 is a 50-50 cost-share 
planning assistance for States. That would be the best way to 
move forward.
    Many of the structures flooded have been condemned and 
removed from the flood plain already. The city is working with 
FEMA on possible grants for relocation assessments. Section 22, 
the outcome of that would be updating flood plain mapping and 
risks, and developing a flood hazard mitigation plan for the 
community. The district's working right now on a section 22 
cost-share agreement and seeking funding to initiate that 
study. And funding would probably not be an issue. Section 22 
is pretty easy to get to.
    Senator Dorgan. But, there needs to be a local sponsor for 
that. Is that correct?
    Colonel Ruch. Yes, Senator. And I believe we have a willing 
sponsor.
    Senator Dorgan. All right.
    Mr. McCrory.
    Mr. McCrory. Yes, Senator. The Local Water Resource Board 
put in a request to the Corps of Engineers for a study. And so, 
we would be the local sponsor, between us and the city. And so, 
when we get this proposal from them, in this section 22, we'll 
see how that goes. But, it's coming through the State Water 
Commission, and their cooperation--instead of them coming in 
and doing a another whole study, the State Water Commission is 
doing this detailed hydrologic study. So, if they dovetail 
things together, they should be able to--you know if there are 
answers. You know.
    Senator Dorgan. Yes. I guess one of the questions with 
respect to this flooding, in Emmons County--and perhaps the 
Colonel and Dale Frink have a notion, and the mayor, as well--
was this sort of a one-time, freakish flooding event that is 
very unlikely to happen again? It's the first time it's 
happened at this level in Linton, for example. Or, is this 
something that you have a responsibility, not only to recover 
from, but also to try to figure out, what are the additional 
measures of protection that might be available to us, and what 
would they cost, relative to the protection they would provide? 
I mean, how do you see that?
    Mayor, is this just something that was so unlikely to have 
happened, and it's very unlikely to happen again? Or, as mayor, 
do you and the folks from Linton say, ``You know what? It 
happened. If it happened, it can happen again. And we need to 
search for mechanisms by which we can better protect 
ourselves''.
    Mr. Volk. Like you said here, hopefully it'll never happen 
again. But nobody can predict nature, what could happen. And I 
could foresee it--it's happened since 1985--I've lived in 
Linton since 1985. It's three times we've been flooded.
    Senator Dorgan. Right.
    Mr. Volk. A couple of streets have been underwater. But, 
this has been the worst that we've followed so far, so.
    Senator Dorgan. So, regarding the section 22 study, is that 
a study that is designed to lead to a conclusion of saying, 
``Here are devices or protection approaches that might be used 
to give that region better protection?''
    Colonel Ruch. Mr. Frink may comment on this afterwards, on 
the studies they're doing--but, as I understand the desired 
outcome of the section 22, it's to update flood plain mapping, 
risks, and developing a flood hazard mitigation plan for 
community. So I think the answer really is ``no'' to your 
question there. It's not looking at structure. It could lead to 
some other--I wouldn't say ``studies,'' but it could lead us to 
some other thoughts.
    Obviously, when you have a flood of this proportion, it 
changes things. The river is not what the river was before the 
flooding. And I think that's what Mr. Frink's study is getting 
at.
    Senator Dorgan. So, Mr. Frink, is there something 
underway--and if section 22 is not it, should there be 
something underway--that evaluates whether there are 
structures? The reason I ask the question is, from Colonel 
Ruch's answer, it sounds to me like, 42 years ago, the Corps 
did a study and identified certain structures that would be 
helpful to protect against flooding, and the structures had a 
better than 1.0 cost-benefit ratio, but did not get built, 
because they couldn't acquire the land.
    So, if that was the case back then, the question in my mind 
is, is there a desire among local folks to evaluate that again? 
And how would that evaluation be done by the Corps or whomever?
    Mr. Frink, do you want to take a crack at that?
    Mr. Frink. Well, first of all, I wouldn't mind the Corps 
taking a look at some of the structures, both in terms of dams 
and dikes, just to make sure that there is not a Federal 
project that we are looking at--we're looking at some of the 
storage upstream. We're looking at some dikes. But, we're also 
looking at flood plain management, or moving some of the 
structures and relocating.
    As I indicated, there are some issues with that. And we may 
have to do some things differently than we've done. But if you 
can't get a structural solution that is feasible, then I think 
the best thing is to look at some relocations. And I know there 
are some issues with that, but I think that is a solution that 
we really need to look closely at.
    But, I would like the Corps to take another look at some of 
the solutions, the structural solutions, if it is at all 
possible.
    Senator Dorgan. I'm just trying to understand, under what 
circumstances would that exist? Section 205, perhaps?
    Colonel Ruch. Absolutely. Section 205 lets us construct 
flood damage, or reduction projects to a limit of $7 million. I 
guess the first $100,000 is fully Federal. But, once again, 
that's under section 205, and I think we'll get to that in the 
next hearing. Whether we're under a current ``no new starts''--
--
    Senator Dorgan. Right.
    Colonel Ruch [continuing]. Right now it could impact our 
decision on where we go.
    Senator Dorgan. All right, and the folks from Linton, your 
assessment of this question--Mr. Frink has talked about flood 
plain management and moving properties, et cetera, which is 
perfectly understandable; those are always very controversial. 
The other question is, is there going to be a desire or a 
priority with the folks from Linton to try to engage the Corps, 
if it's able to be done, to look at structures?
    Ms. Jangula. I think when we initially started our planning 
for the future, we were leaning toward structures and how we 
can actually protect and minimize the risk to the homes that 
remain there. Throughout the course of planning and the 
meetings we've been holding, I think there has been discussion 
that structures may not be feasible, and we may not meet that 
benefit-cost ratio.
    And so, then discussion also then led to relocations. And, 
of course, when we're looking at the number of homes that need 
to be relocated, we certainly don't have the infrastructure in 
place for that type of relocation. And that, too, would cost 
enormous amounts of money, and we don't know if it's feasible 
for an undertaking of that kind.
    Old Town, as we refer to it, is actually a very lovely part 
of town. The people that live there enjoy living there. So, I 
think, initially, our first preference would be to somehow 
protect it, if it was feasible. And our second course of action 
would have been the relocations.
    And I think Mr. Frink had touched on this earlier. With 
some of the homes and the ages that they are, of course, these 
homes are paid for, and people are living on fixed incomes, in 
some instances. To replace them is going to be substantially 
more than where they are at right now.
    Senator Dorgan. I think that's a point that you raised 
earlier in the testimony that's important to understand. In 
smaller communities, very often the current value of a home is 
substantially less than the replacement cost. In some cases, it 
is even very difficult to get financing to build something 
that, when completed, is going to be worth much less when it's 
done. So, that's something that we should remember, because 
that has an impact on moving structures, and so on.
    Can you, finally, tell me, Colonel and others, about the 
Silver Jackets Program. Tell me how that works, and its value, 
if you would, because, Dale, you mentioned it, and I think the 
Colonel has, as well.
    Mr. Frink. The Silver Jackets Program, from my 
understanding, is a program that the Corps of Engineers has 
actually taken the lead on nationally, so it's a national 
program. In North Dakota, we're thinking about expanding the 
general concept of it a little more.
    Nationally, they were looking at more of an emergency type 
of thing, but we would like to expand it, and that's why we're 
going to hire a temporary full-time employee that can work more 
directly with the communities, provide a point of contact.
    And I know that communities, like General Robinson, and so 
forth--this is kind of going to replace that particular concept 
with the Water Commission, and then the Division of Emergency 
Services, on the State side, kind of taking the leads on that.
    So, you know that General Robinson and that group was hired 
on a temporary basis, just for the short-term flood, but, this 
is going to be a little longer. It's going to be under the 
State Water Commission as the primary lead for that employee.
    But, it's a concept just to provide a broader array of 
assistance to the communities. You know, we can bring in 
Federal agencies, we can bring in other State agencies, and 
then we can work with the locals and try to develop something 
that is going to work.
    Senator Dorgan. All right, Colonel.
    Colonel Ruch. Well described.
    I guess the bottom line is, it's collaboration, and it's a 
way to get at collaboration. The worst thing you can have is a 
disaster of some sort, and people coming together for the first 
time to figure out what to do. So, I think all the times, the 
value of these programs is the forethought that--might not be 
the actual solution to come out of it; it's the work that goes 
into getting to those solutions and building the relationships 
you need when you come to a crisis.
    Senator Dorgan. All right.
    Mr. McCrory said that there's an irony, in the sense that 
when they come to Linton--or, to Emmons County, in that region, 
it is often to talk about moving water to the region through 
the rural water program. And that is true. We're working to 
have broader distribution of the rural water program. It is 
sort of interesting that we talk about a region that, on this 
occasion, had way too much water, in a hurry; on other 
occasions, really needs good-quality water moved around by the 
rural water system.
    I mentioned, last evening, that the dilemma is much more 
acute with respect to the Red River, because, as you know, 
there has been a lot of work to try to determine how you move 
water from the Missouri River to the Red River to make sure 
that the Red River has an assured supply of water for the 
future. The Red River has actually run dry, were it to do so 
again, it would have significant economic consequences up and 
down the river.
    I have explained to the folks in the region that I 
understand that the people of Fargo and Moorhead, given what 
they faced this spring, believe that its most significant 
priority at the moment is flood control. And I understand that. 
The local folks are moving very quickly now to try to identify 
the flood-control project they want. But, I've also indicated 
to them, it's not possible, in this subcommittee or in 
Congress, for me to describe that the Red River Valley has a 
significant need for, perhaps, a $1 billion flood control 
project and then, at the same time, be working on a project to 
take water from the Missouri to the Red River. Those two 
projects, both very expensive, would not be something the 
Congress could understand, very easily, occurring at the same 
time--too much water and not enough water projects.
    So, I have explained that the issue of water to the Red 
River, regrettably, is going to have to take a backseat to what 
the local folks in the Red River Valley want at this point, and 
that is the greater flood-control project for the largest 
population center on the Red.
    I want to thank the three of you from Linton for being 
here, on behalf of Emmons County. What I'd like to do is keep 
in close touch with you as the hydrologic study is done, as the 
section 22 study is done. I understand you have a local 
sponsor. And we would like them to be in close touch to 
evaluate what more can be done.
    I think that the flood plain management approach is an 
effective approach, and the Silver Jackets Program should be 
very helpful. And what I would like to do is just keep in close 
touch with you to determine if there are things that I can do 
with the Corps of Engineers to try to help address measures of 
greater protection for Emmons County, I want to do that.
    So, thank you very much for being here and for presenting 
testimony today.
    What I'd like to do is have the Colonel and Dale Frink 
remain and then ask the folks from Mercer County to come 
forward.
    If I can ask Mr. John Phillips, city administrator of the 
city of Beulah, Frank Bitterman, Mercer County commissioner, 
and Greg Lange, secretary treasurer of Mercer County Water 
Resources District, to come forward, we'd appreciate that.
    Thank you very much.
    Let me also say--I didn't say at the start--I apologize; 
there's some inconvenience, I know, for you to travel from 
Emmons County to Bismarck and Mercer County Bismarck. I'm sorry 
for the distance you had to travel, but this was the best way 
for me to be able to do both at the same time in a central 
location, so I appreciate your indulgence.
    Mr. Frink, you have additional testimony with respect to 
Mercer County. Would you proceed with that, and then I'll hear 
from the other three.
    Mr. Frink. Thank you. My testimony, actually, on Mercer 
County is shorter than it is on Emmons County. And thank you, 
Mr. Chairman, for holding this, on Mercer County.
    The Corps of Engineers has actually taken the main lead on 
Mercer County at this point. And the Water Commission certainly 
is going to be actively involved in that process. And certainly 
any alternative, even if it is a Federal project, will require 
some non-Federal dollars, and the State Water Commission 
certainly is looking forward to considering those requests.
    The State Water Commission is in Emmons County. We're 
certainly willing to look at all of the alternatives, some of 
which would be part of a Corps project, but certainly, I think, 
relocations and those type of things are something that we're 
willing to look at.
    Also, as in the case of Emmons County, I think we need to 
look at whether or not some additional stream gauges and some 
early warning systems would be appropriate for the Knife River 
Basin. I think, again, we really were surprised by the severity 
of the flooding that did occur in Mercer County this year.
    And I won't go through the Silver Jackets thing again, but 
the Silver Jackets Program certainly is available for all North 
Dakotans, including Mercer County, and we're just willing to--
at any point, to sit down and talk to you about your flood 
solutions and your issues that you may have.
    So, thank you, Mr. Chairman.
    Senator Dorgan. All right, thank you very much. I'm going 
to ask the Corps later about their discussions with Mercer 
County.
    Mr. Phillips, we appreciate your being here, and why don't 
you proceed. You're the development director of the city of 
Beulah, and we appreciate you coming today.

STATEMENT OF JOHN PHILLIPS, DEVELOPMENT DIRECTOR, CITY 
            OF BEULAH, NORTH DAKOTA
    Mr. Phillips. Thank you, Senator. And it's certainly no 
inconvenience to come here, considering you're providing your 
time.
    And I'd also like to thank Justin for that, because his 
telephone is available at any time with that, so we really 
appreciate that, that your staff is that accommodating to us 
also with that.
    Senator Dorgan. Thank you.
    Mr. Phillips. So, thank you. Thank you, Justin, for that, 
so.
    Senator Dorgan. Would you pull that microphone just a 
little closer to you?
    Mr. Phillips. Certainly.
    Basically, being from Beulah, I know we are the hardest-hit 
community, because the Knife River runs right through the 
community--just remembering, back in 1997, when we were all 
returning from the State basketball tournament, a pretty 
exciting time in Fargo with that, and we'd gotten a call the 
night we were playing in the semifinal game that there was some 
incident occurring in Beulah with that. And a certain amount of 
flooding occurred and the damage had occurred there with them.
    In previous flooding, in 1997, a tremendous amount of 
damage occurred during the flood, and it was really devastating 
for people. And some people had a lot of difficulty recovering 
from that and it becomes a very emotional and stressful thing 
also with that.
    Not only in the community, but the immediate agricultural 
areas of that, there's just a huge amount of cleanup that has 
to be done that that becomes rather daunting for an individual 
to accomplish. And typically you have a single farmer or a 
single individual on the farm with that, or whatever. And when 
he sees the debris in the pasture, the silt on the cropland 
with that, the hay gone, and whatever, plus the loss of 
livestock, it really is kind of a real devastating and 
emotional time with that. And to work through those times, it 
really, really requires a lot of patience to do that.
    In Beulah this year, the flood was actually much more 
magnified than in 1997. We got more water with that, and we 
still have not hit the 100-year curve for that, which has been 
identified now with that.
    We had seven homes where the basement actually failed. They 
won't be replaced or displaced from the area; you have to be 
removed with that. There is what we see, in the older home, as 
Linton is identifying also with that, is that where the 
structural failure often occurs with that. Again, when you 
start talking about home displacement, home removal, to replace 
a home in that area--of course, it's in the flood plain, so 
it's zero basement, above the base level of elevation of that. 
But, again with that is that the cost of the home replacement 
now, versus the one that was built at that time, and then those 
people that have the affordability to live in those homes, it 
often becomes a real financial stress for that family or that 
individual with that. So, that's something there, in the 
appraised value with that.
    Not only, then, during the flood occurrence did we have the 
water and the devastation going on with the Knife River 
overflowing its banks--we only get about 12 inches of heavy wet 
snow with that, where we actually couldn't move, so we had 
people displaced from that area with that, in the three motels 
that are part of the north in the city with that. And we have 
some substantial snow removal equipment in the city to 
accommodate our needs with that, with that, and we had to use 
all that equipment to just get access to one hotel to get food 
up to that hotel where the people that had been displaced with 
that. So, that was a tremendous amount. And along with that, 
then, the rural electric had some power poles go down, so we 
had to stretch it in the rural area, right immediately adjacent 
to the city, that didn't have electricity for 3 days with that. 
Had a home burn down, with that. The fire department had 
trouble getting access to that property, with that. So, there's 
a multiple of occurrences, you know, in the immediate area, in 
what we call the ``community area,'' with that, in Mercer 
County, with that.
    We had a Corps study in 1989 completed, with that, to 
evaluate their flood plain and what were some of the things 
that maybe could be done to mitigate the water damage or the 
flow of that river, with that. But, again, is that what 
typically happens, with that, is, in that Corps study, we did 
identify some things where we could plug through some real 
critical infrastructure within the city, which was done after 
the 1997 occurrence, with that. In the 1997 occurrence, we 
couldn't use our water plant. It was actually shut down. Our 
service system essentially was shut down, with that. And 
basically what happened, we had such inundation with water, we 
had a tremendous amount of sewage back up into basements also 
with that.
    We were able to really, really handle that very well this 
year, with that. The water plant ran the entire time and people 
had fresh water, where we actually had an area that went beyond 
the flood plain, that actually had the sewer backup in the 
basement. All the commercial buildings on Main Street, with 
that. We were able to put a gate valve into our system, that 
prevented all of that backflow from occurring. And that was 
done through your assistance programs, with that, for 
mitigation. So, that was a tremendous amount of help that we 
were able to do that this year to minimize some of that.
    But, as I said, in that 1989 study, some of the things that 
probably would have been to reduce the flow, again, didn't meet 
the matching criteria, with that, and the ratio study, with 
that. So, we need to rethink that and look at that again.
    Basically, what we're looking at is, that we also think 
that we need to establish a better communication with the 
National Weather Service, with that. We had the opportunity to 
meet with the National Weather Service at the League of Cities 
meeting this year, with that. And sometimes I think we forget 
that in the rural communities we don't communicate as well as 
we think we should. And with technology that's available right 
now, with that, I think it's extremely easy to compete with 
everyone, with that. I take a look at e-mail, and it's clicked 
and it's gone, and how many people can you contact, with that? 
It's a great resource.
    So, I think that we've identified the need to have a better 
communication link with the National Weather Service to provide 
us some information.
    The other thing that we are also looking at now, we need a 
way to better gauge the flow of that river. The flow points or 
the identification points of flow that we have are a long ways 
away, with that. And also, we have Spring Creek, that flows 
into the Knife River, that provides a tremendous amount of 
water into the Knife River, as the creek that comes through 
Zap, North Dakota, that really devastated their park and that 
area of the city, with that; they had an RV park in there that 
was just inundated and really damaged, with that.
    So, we need to work with those things and I think that, 
again, we need to reemphasize the importance of a study. And I 
think one of the things that we look at--we talked about a 
dike, and one of the things that were addressed in the 1989 
study was a dike. And I think the actual reality of that is not 
real feasible for a rural community, with that. But, I think a 
statement that was made by Major General Sprynczynatyk, when he 
visited the site--or, visited our community, is that we need to 
look at ways to minimize the flow, or control the flow, of that 
water through the city. We're not going to prevent it from 
going through the city; we need to look at ways to minimize and 
control that flow. And one other project we often relate back 
to is that we have a watershed on the north side of our 
community, and we have drainage ditches that come from the 
north side of the city. And, basically, in the spring, at the 
watershed area, north there, would flood parts of the city that 
are actually not even in the flood plain, with that. And 
working with the State Water Commission at that time, there was 
a dry dam constructed there. They have never had a problem 
since. But, again, we control through the city.

                           PREPARED STATEMENT

    We look forward to working with all the agencies. And we do 
thank and appreciate the work the agencies have done. And we 
look forward to further working and trying to alleviate the 
problems in the community, with that.
    Thank you.
    [The statement follows:]

                  Prepared Statement of John Phillips

    Senator Dorgan thank you for taking the time to hear us today 
regarding the damages and the needs to mitigate future occurrences such 
as the 2009 flooding event.
    In Beulah we had 100+ homes affected by the flood causing various 
degrees of damage to the residential structures, including some with 3 
feet to 5 feet of water in their basements. We also had seven homes 
that had their basement walls fail and will have to be removed from 
their location as it is not economically feasible to try and renovate 
the property.
    The city of Beulah had a study done by the Corps of Engineers that 
was finalized in 1989 and following the 1997 flood incident did ``flood 
proof'' critical areas in the cities infrastructure, which were 
identified in the study. Several projects that provided critical 
protection and minimized the flood damage in the 2009 incident 
included; building a dike structure around the water treatment plant, 
raising and flood proofing two of the primary sewer lift stations, 
installation of a valve system that prevented any sewer backflow from 
the ``flood area'' into an area not affected by the flood waters and 
securing manholes to restrict water from flowing into them. This work 
allowed the cities water and sewer system to remain functional during 
the incident which did not occur during the 1997 flood incident.
    Moving forward we still need to address how to mitigate the problem 
as we can't incur those extensive damages every 10-12 years. Mercer 
County collectively has ``joined forces'' and requested the Corps of 
Engineers to do a Knife River Water Shed Study. We also understand that 
there is a moratorium on any new studies and also there is no funding 
currently available. We think it is very important to work on moving 
the study and funding availability forward as what we have been told 
the previous studies are obsolete as a result of the 2009 event. We are 
also requesting to be considered as a part of the Missouri River study 
as the Knife River was a major contributor to the recent Bismarck 
flooding event.
    The cities of Hazen and Beulah have recently requested the Mercer 
County Water Board and State Water Commission to initiate a water shed 
study of both Spring Creek and Antelope Creek as they have been 
determined to be significant contributing factors to the Knife River 
flooding. It is also felt this project would be on a much smaller 
scale, affordable and would be able to be accomplished in a timely 
manner.
    Another area we are in need of support is to encourage the National 
Weather Service to communicate with the rural as well as urban 
communities to disseminate information relative to snow pack, water 
content and projected flooding as a result of weather conditions. This 
was not done during the last two flood occurrences in Mercer County 
although they were in daily contact with the ``Red River Valley'' area. 
In addition we need more measuring gauges on the Knife River to 
determine water flows.
    Concluding my testimony we look for your continued support and 
assisting us with cost effective measures to accomplish mitigation. 
Rural communities don't have the capability of generating ``Millions'' 
of dollars for flood protection.

    Senator Dorgan. Mr. Phillips, thank you very much. We 
appreciate that.
    Mr. Bitterman, you may proceed.
    While you're beginning, let me say that, for this panel and 
the previous panel, we will keep the record of the hearing open 
for 2 weeks, and those who wish to present additional views or 
testimony as part of the permanent record and the published 
hearing record can do so by e-mail or by snail mail, as long as 
you get it to us.
    Mr. Bitterman, you may proceed.

STATEMENT OF FRANK BITTERMAN, COUNTY COMMISSIONER, 
            COUNTY OF MERCER, NORTH DAKOTA
    Mr. Bitterman. Well, thank you, Senator, for coming to 
Bismarck for this location.
    I lived in Mercer County for, oh, I hate to say this, but a 
long time. And I look back at the floods that came through Zap 
at that time, 1943 to me, was a good one. It got up in Main 
Street, run around the church and run around the other side of 
town, and it went out. Since that time, I believe the river is 
wider and it takes more water.
    When this year came along and I sat down at the county 
office with our emergency management person, Peg Sorensen, and 
we watched that water come in like a bomb, and it was just--we 
thank God that there was 4 days of weather that it was 15 below 
at night--or, 15 above zero at night--that held this off, 
because we had a second flood come in, and it would have been--
I think we would have got the 100-year flood.
    But, I do want to say that I appreciate what the Water 
Board is doing. I appreciate the State Water Board. Craig has a 
got a lot of information, and I think I'm going to turn it over 
to him.
    Senator Dorgan. All right. Mr. Bitterman, thank you very 
much.
    Mr. Bitterman. You're welcome.
    Senator Dorgan. Greg Lange, thank you for being here.
STATEMENT OF GREG LANGE, SECRETARY-TREASURER, MERCER 
            COUNTY WATER RESOURCES DISTRICT
    Mr. Lange. Senator, March 23, 2009, the Spring Creek at 
Zap, North Dakota, peaked at 21.40 feet. That broke a 37-year-
old record. On the next day, those record flows brought the 
Knife River to Hazen to 31.4 feet. That broke a 43-year-old 
record by more than 4 feet.
    Before they reached the Missouri River at Stanton, those 
flows damaged approximately 100 homes within or near the 
communities of Zap, Beulah, and Hazen. And the damage was not 
confined to those cities, as there was extensive damage to 
recreational facilities, to county roads, bridges, culverts, as 
Frank would be very aware of. And agricultural losses were 
estimated to exceed $1.5 million.
    The Knife River flood, then, of 2009 also caused major 
erosion and tree damage along the banks, and the large 
quantities of sediment that were scoured up from our boundaries 
within Mercer County were carried downriver to adversely affect 
powerplant intakes at Stanton, city water intakes in Washburn, 
Mandan, Bismarck, and Fort Yates. The unprecedented flows from 
the Knife River then went on to contribute significantly to the 
ice jam and the flooding that took place in the Missouri River, 
that you heard about last night, near Fox Island.
    The Mercer County Water Resource District then, with the 
active support of the county and several local cities, has 
taken some leadership here to address these matters and 
determine what we can do to reduce the impact of such floods in 
the future.
    We began that process by talking to the Corps of Engineers 
about doing a section 205 study. And the study is to cover the 
Knife River and its tributaries as they come through Mercer 
County, and recommend the most cost-effective measures to 
reduce that flooding in the future. That request was made June 
18, 2009, and, I've got to give the Corps credit, Mark Nelson 
was out here in August, thereafter, to study the area and pick 
up a little bit of ground knowledge.
    So, the groundwork's been laid for a comprehensive study 
under section 205. But, the Corps has no funding to commence 
such a study. And I guess we'll talk more about that in a 
moment.
    This lack of funding led the Mercer County District to 
consider some other alternatives that we might use to control 
flooding. Mark Nelson suggested that the Corps had some 
planning and design powers under section 22, as was just 
addressed, some ability to deal with streambank stabilization 
through section 14, and a general investigation sort of study, 
which requires an earmark, which I understand are going to be 
hard to come by.
    None of these alternatives, though, would provide the 
important combination of a comprehensive study and Federal cost 
share for subsequent projects that would be available if 
section 205 was properly funded.
    The USDA Natural Resources Conservation Service, or NRCS, 
also has some authority under the Watershed Protection and 
Flood Prevention Act, Public Law 83-566, to work with State and 
local entities and tribes to install watershed projects in 
small watersheds. I learned recently that in Grand Forks County 
this project alone has been a basis for 10 dams that now 
account for a 27,000 acre-feet of water storage in that 
particular area.
    Unfortunately, all of these dams were built about 10 years 
ago, and the program has not been funded, in adequate numbers 
anyway, since then to allow for any more.
    Rich Axvig, of the Grand Forks Water Resource District, 
said, and I agree with him, ``We need this small watershed 
program to become active again. It has proven itself 
successful, time after time.'' He reported that a Congressman 
Collin Peterson of Minnesota may be working to increase the 
funding to address some Red River water concerns with this 
program, but we need it just as much out here, as you heard 
from Emmons County, as well.
    While that Federal funding for NRCS and Corps of Engineers 
is pending, the water district intends to work with the State 
Water Commission. I'll be talking to Dale a little bit more 
about this afterwards--or private measures to study the 
potential for flood storage within the smaller watershed that 
contribute to the Knife River.
    While pursuing those studies, we're working on something 
right now, and that's to mitigate the damage that's already 
been done. We've had mapping done on the river that can be seen 
online now through our Web site, mercerwater.org, which is in 
my remarks, where you can actually go and actually see the 
various damages. But, I've canoed the river, and the amount of 
damage is unprecedented. I've been canoeing that river for 30 
years, almost, and I've never seen anything like this. There 
are trees standing in the middle of the river, and they will 
create problems in future high water situations. So, we're, and 
hope to partner, with the State Water Commission to snag and 
clear some of the worst of those before they contribute to 
future ice jams and future flooding.

                           PREPARED STATEMENT

    Whatever we do, the best solutions to flooding along the 
Knife River are going to happen in partnership with properly 
funded Federal, State, and local people and programs, which 
emphasizes the importance of these kinds of meetings, the 
Silver Jacket Program that's been talked about to coordinate 
the people. But, we also have to coordinate the dollars and we 
have to get the dollars into the programs that are most well 
designed to deal with things that we're dealing with.
    So, on behalf of the managers of the Water District, I want 
to thank you, Senator, for this opportunity to present our 
views and our needs.
    [The statement follows:]

                    Prepared Statement of Greg Lange

    On March 23, 2009 the Spring Creek at Zap, North Dakota peaked at 
21.40 feet--breaking a 37 year old record. On the next day, these 
record flows brought the Knife River at Hazen to 31.40 feet--breaking a 
43 year old record by more than 4 feet. Before they reached the 
Missouri River at Stanton, these massive flows damaged approximately 
100 homes within or near the communities of Beulah, Hazen and Zap. The 
damage was not confined to cities as there was extensive damage to 
recreational facilities, county roads, bridges and culverts, and 
agricultural losses were estimated to be in excess of $1.5 million.
    The Knife River flood of 2009 also caused major erosion and tree 
damage along its banks. The large quantities of sediment scoured from 
the banks was carried down river where it adversely affected two power 
plant intakes at Stanton and city water intakes for the cities of 
Washburn, Mandan, Bismarck and Fort Yates. The unprecedented flows from 
the Knife River contributed significantly to the ice jam and flooding 
on the Missouri River in the Fox Island area south of Bismarck.
    The Mercer County Water Resource District, with the active support 
of the county and several local cities, has taken the lead to determine 
what steps can be taken to reduce the impact of future floods. The 
managers of the Water Resource District began by asking the Corps of 
Engineers to use its authority under section 205 of the 1948 Flood 
Control Act to study the Knife River and its tributaries in Mercer 
County, and recommend the most cost effective measures to reduce 
flooding on the Knife River in the future. Since that request was made 
on June 18, 2009, Mark Nelson of the Corps visited the area on August 
5, 2009. The groundwork has therefore been laid for a comprehensive 
study under section 205, but the Corps has no funding to commence such 
a study at this time.
    This lack of funding led the Mercer County Water Resource District 
to consider other alternatives to control flooding on the Knife River. 
Mark Nelson of the Corps of Engineers mentioned that the Corps has some 
planning and design powers through ``section 22'', some ability to deal 
with stream bank stabilization through section 14, and could do a 
``general investigation'' study by congressional earmark. None of these 
alternatives would provide the important combination of a comprehensive 
study, and Federal cost share for subsequent construction projects that 
would be available if section 205 funding was restored.
    The USDA Natural Resources Conservation Service has authority under 
the Watershed Protection and Flood Prevention Act (Public Law 83-566) 
to work with State and local entities and tribes to plan and install 
watershed projects. In Grand Forks County alone, this program has been 
used to construct eight flood detention dams on the upper Turtle River 
watershed, one on the middle south branch of the Forest River, and one 
on the English Coulee watershed above the city of Grand Forks. Together 
these dams provide over 27,000 acre feet of flood water storage. 
Unfortunately, all of these dams were built years ago. While the law 
remains in effect, it is has not been adequately funded in recent 
years. As Rich Axvig of the Grand Forks Water Resource District 
recently said, ``We need this small watershed program to become active 
again. It has proven itself successful time after time.'' We believe 
that Congressman Collin Peterson of Minnesota may already be working to 
increase the funding in this program to address Red River Valley 
flooding. It is no less needed in the western part of the State.
    While Federal funding for the NRCS and Corps of Engineers programs 
is pending, the Mercer County Water Resource District intends to work 
with the State Water Commission or private engineering firms to study 
the potential for flood storage within the smaller watersheds that 
contribute to the Knife River. While pursuing these various studies, 
the District will endeavor to mitigate the extensive bank damage to the 
Knife River between Beulah and Hazen. Hundreds of trees along the banks 
were undercut and washed into the streambed by the high spring flows. 
The extensive damage can be seen on the District's Web site at 
www.mercerwater.org. The District hopes to partner with the State Water 
Commission to remove these snags from the riverbed before they 
contribute to future ice jams and flooding in this already vulnerable 
area.
    It is likely that the best solutions to flooding along the Knife 
River will be arrived at through a partnership of properly funded 
Federal, State, and local people and programs. The Mercer County Water 
Resource District looks forward to working with these partners and 
programs to reduce the impact of future flooding on the Knife River. On 
behalf of the managers of the District, I thank you Senator Dorgan for 
this opportunity to present our views and our needs.

    Senator Dorgan. Mr. Lange, thank you very much. We 
appreciate your being here.
    Let me ask, what kind of a role did ice play in the 
problems in Mercer County? Can anyone give me a notion of that?
    Mr. Bitterman. You know the Knife River extends about 67 
miles west of Beulah. The Spring Creek is approximately from 8 
to 15 miles north of that. And this year I don't know why--
well, we had a cold winter, but we seen ice come down that 
river, that went into the Missouri, that was 3 feet to 4 feet 
thick, and some of those blocks were 25 feet long. And, you 
know, it was a bad winter, and then the bad flood. It just--it 
broke a lot of trees down.
    I went to--I really don't think, right now, that we had a 
bad enough ice jam at any place that stopped the flow of the 
water, because the water got where it wanted to go. And we did 
have ice chunks laying south of the Knife River, 1\1/2\ to 2 
miles, on top of little hills, little knolls in the fields. And 
that water must have been--I don't know, you said 32? And it 
just--a combination of bad things happened.
    Senator Dorgan. Let me ask you--the Knife River, Spring and 
Antelope Creeks, all three were a problem and a contributor. 
Can you make an assessment about the contribution of each to 
this flood? I mean, was one an overwhelming contributor, versus 
the other two?
    Mr. Bitterman. Let me first say that there's the Coyote, 
that goes into the Knife, and then there's the Gold Creek, that 
goes into the Knife, and then there's one of them that's south 
of Dodge that comes in, that goes in the Knife.
    The Spring Creek takes up Goodman Creek. That was where the 
heaviest snow was, north of Zap and Beulah was the heaviest 
snow in that area. And I believe it. We had quite a bit more 
than Bismarck, here. But, Spring Creek--last fall, they drained 
Lake Iowa. That had to fill up first, before it got to the 
Knife River and Beulah. It didn't make any difference what had 
to be filled up. There was enough water to do everything. I 
mean, it just came down. And I've never seen water come up that 
fast. It was running a good speed. I mean, there was no 
blockage or--wherever we went to look at it, it was flowing at 
a good speed.
    Senator Dorgan. All right.
    Mr. Phillips, did you have comment on that?
    Mr. Phillips. I'd like to start with--we all see a certain 
amount of ice, with that, but, I think, you know, basically the 
ice broke up relatively fast, compared to 1997. In 1997, we 
certainly had much greater ice jams, and we had ice blocks on 
Highway 49 that State snow plows had to come in and push them 
off, with that. So, I think, here, that we did have some ice, 
certainly, with that, to probably build up the water. I think, 
for a day, or at least 12 to 14 hours the level at the bridge 
at Beulah was greater than that as you move farther to the east 
of that. But, it did break up quicker than it did in 1997.
    But, our biggest issue right now, I think, or one of the 
big things, is, Spring Creek's a large feeder and is a large 
watershed also, that really, really puts a lot of water in the 
Knife River, with that. And with the snowpack and--because we 
actually got a second flood, weeks later, when everybody had 
their house, that could clean it up and get it sanitized or 
whatever, a week later--it was Easter Sunday--we had to go on 
the entire south side and provide another warning that the 
water was raising again, with that. The water level at that 
time had gone within inches of going into basements again, with 
that. It didn't--it never entered another basement, but it 
really, really devastates the recreation areas. A beautiful 
park by the river with a large athletic complex, it just 
literally destroyed that. There was a tremendous amount of 
damage, with that, that took place.
    Senator Dorgan. All right.
    I want to ask Colonel Ruch, if you will pass the 
microphone----
    Mr. Phillips. Yes.
    Senator Dorgan [continuing]. To the Colonel.
    Colonel, as you've been discussing things with the Mercer 
County region, what kinds of things do you think represent 
opportunities for them to try to prevent, in the future, that 
which has happened to them?
    Colonel Ruch. To begin with, I'd like to say that I was 
heartened a bit by Mr. Phillips' comments, where we actually 
did a study and some of the recommendations took place, and we 
actually saw the benefit during this last flooding. And, you 
know, oftentimes it seems that we're sitting here and saying 
that we did a study and didn't move forward. So, I'm heartened 
to see that, when we apply these efforts, that you can see 
results.
    We always bring up the 100-year flood or the 50-year flood. 
That doesn't mean you get 99 years off if you get one flood. It 
means every year you have a 1-percent chance of getting 
flooded. And it has nothing to do with the amount of time. I'd 
just like to say that, because people think that it's based on 
some historical occurrence. It's a risk number thrown out 
there.
    We have had good discussions with Mercer County. We 
received a letter on June 18 and very quickly came up here. We 
visited August 5. Once again we went out and looked at the 
areas, what happened, and had a good discussion.
    Section 205 really does fit the bill, so that's what we 
have recommended to go forward. We've expressed a capability of 
$100,000 for fiscal year 2010, with the possibility of 
initiating a new start for a feasibility study.
    The Corps Headquarters is assembling a list of possible new 
starts for section 205, nationwide, which will be presented to 
the congressional appropriation committees for approval prior 
to funding any new starts.
    So, this seems to be the right authority to get at the 
problem. We talk--I heard a little bit about maybe starting a 
complete new study, if there's a new award next year, perhaps 
that----
    Senator Dorgan. Well, there's only $40 million for the 
entire country, in section 205, but, assuming, for the moment, 
that the Corps decides that this is the right approach and that 
there are new starts available and that it is triggered here, 
tell me what 205 does for you and will mean for local folks.
    Colonel Ruch. Well, you get a little wire look we've talked 
about several different programs that can look at one section 
or another. This is a little more comprehensive and it really 
gets to adopting and building flood damage reduction. I mean, 
you can end up with a physical project.
    Senator Dorgan. And what is the timeline on something like 
that?
    Colonel Ruch. Somewhat dependent, I guess, on the funding, 
but I believe we say 3 to 5 years, and--what?
    Voice. [Off-mike.]
    Colonel Ruch. Thirty-six months, $7 million, yes.
    Senator Dorgan. And tell us what the cost share is on that, 
assuming that----
    Colonel Ruch. The cost share for that is 50-50. And I think 
we--once again, we did have that----
    Senator Dorgan. And you have to go through the same 
studies. Then, ultimately, when you get to that point, you have 
to have a local sponsor, saying, ``All right, here's what we 
now understand this may cost, and yes, we want to do it,'' or, 
``You know what? We're now at this point, now we see what it's 
going to cost. We may not want to do it,'' right?
    Colonel Ruch. That is correct. So, I would just say that 
section 22, in the interim, I think, was discussed once again, 
as planning eight States, and that's also a 50-50 cost share. I 
don't think we had mentioned that, the cost share there, as 
well.
    Senator Dorgan. My understanding is, from the discussion, 
there's a substantial problem with bank erosion. Where is that 
problem most acute?
    Mr. Lange. May I address that?
    Senator Dorgan. Yes.
    Mr. Lange. Senator, the mapping just got done on that 
within the last month. Thanks to higher-than-normal flows on 
the Knife River for this time of the year, we were able to map 
those things and complete that. And the worst of it appears to 
be in the Hazen area, just starting about Hazen and going below 
Hazen. And, of course, an ice jam there is going to most affect 
Hazen, but it's going to affect everything upriver, as well. 
And I want to second what others have said, that planning--
anything that can help us plan and prepare for what's coming 
downriver, like additional gauges, may be--Antelope Creek 
primarily affects Hazen. It comes in below Hazen, so it doesn't 
impact some of the higher ones as much. But, it borders Hazen 
on the north side, and it's a threat to Hazen, and it got very 
high.
    But, one of the things that we tend to do, as Ms. Jangula 
indicated earlier, is, we tend to plan for the last flood and 
think we're okay if we plan for that. And that's very dangerous 
here, because, as high as this was, it was not as bad as it 
could have been. As John and Frank indicated, there were 
certain things that helped--cool weather at nights for several 
times slowed this down. And a rather unusual amount of storage 
in the Upper Basin, for what we already have there, because of 
dry summer. And so, but for a couple of things, this could have 
been quite a bit worse. And, although Antelope Creek stayed 
within the controls, it very easily could have been much worse, 
and Hazen could have been in a very similar situation to Beulah 
if we had not had the lingering melt that we did.
    So, it's safest for us to assume it will be worse, and plan 
for that aspect. And again, if we have enough warning of 
snowpack levels and moisture levels within the snowpack, we can 
plan more for what we're going to get.
    Senator Dorgan. Is USGS the agency that is engaged there? 
Are there additional gauges and measuring devices necessary, do 
you think?
    Mr. Lange. I think so. And that's something--that's a 
discussion--I was glad to hear that they're doing more on 
Beaver Creek. And we'll want to talk to them about that. I 
think--more on Spring Creek--we don't have much in Upper Basin. 
I can give you records, because that's where we have stream 
gauges. But, that's two, and we could use some more, I don't 
think we have anything on Antelope. And so, that's another one 
where some siting--we'll talk to USGS about some more siting.
    Senator Dorgan. All right. And we'll do that, as well.
    Yes, sir? Mr. Bitterman?
    Mr. Bitterman. Oh, one thing I've been talking to my 
commissioners about is, we have zoning laws in our county, we 
have zoning in the city and stuff, and until we get something 
lined up here, or whatever we're going to do about the flood, I 
think somewhere along the line, the city and the county--we're 
going to have to stop people building in these flood areas 
until we get something settled, because we just can't have 
$200,000 homes built down there that we know are going to get 
it, in 2 years or 3 years, Byron, and we're going to look at 
you and say, ``Mr. Senator, what can we do about it?'' And I do 
think that some action should be taken in that direction, too.
    Senator Dorgan. All right.
    Mr. Bitterman. Thank you.
    Senator Dorgan. Mr. Phillips?
    Mr. Phillips. I think one of the things we need to 
address--and we talked about the 205 program, but we also 
talked about the costs of those things. And we talked about a 
50-50 match, with that, you know. And I think we need to 
address--the 50-50 match is very difficult in a rural area, 
with that. I mean, it's not like we--we're in Fargo and we can 
put a half cent on our sales tax and generate a million dollars 
a year, with that. I mean, that's just not realistic and not 
feasible.
    In some way, we need to address--Greg had identified what 
they had done in Grand Forks County or in the Grand Forks area, 
with that, with the NRCS programs. And there again, I think 
that we go back to what the costs of that dry dam was that was 
constructed north of our city that certainly has alleviated a 
tremendous amount of water flow and damage that could have come 
from that area, with that. And that dry dam cost certainly 
wasn't what we're talking about with some other projects, with 
that.
    So, I think that, some way, we need to identify some cost-
realistic programs and opportunities also, that could mitigate 
some of the problems we have.
    Senator Dorgan. That's a fair point. And it is more 
difficult for rural areas to come up with the funding. As Dale 
Frink indicated last evening, of course the State water 
commission is also, in many cases involved in being helpful 
with respect to the local funding share.
    Let me ask, are there any other comments you wish to make? 
I wanted to make a couple of comments with respect to both the 
Emmons County testimony as well as Mercer County testimony.
    It seems to me, while there are some differences here, 
there are also some similarities--the need for additional 
gauges that are able to be predictive or allow you to be 
predictive of flood threats. It seems to me that's important, 
as well as the question of recovery. Also what kinds of things 
can be done that are cost effective and can be done in a 
reasonable timeframe that can mitigate flooding threats? Are 
there studies that can lead to structures that can be helpful? 
If so, are those structures affordable?
    All of those issues, I think, are important. I think both 
the Corps of Engineers and the State water commission are 
essential in cases like this, with the Mercer and the Emmons 
County flood events, to try to think through, What are the 
range of alternatives that can give us some assurance that 
there is greater protection against an event like this should 
it happen again? That's--the purpose of my being here today; as 
I indicated to you, we're working very hard on Red River Valley 
issues, the Red River. There are chronic flooding problems 
there. We have a study of the Sheyenne River system underway. 
We have a study of the James River system underway. We have, 
obviously, a larger, more comprehensive study of the Missouri 
River system that I authored and have funded. That'll be a 
little longer-period study.
    But, let me just say, the reason for that, which I think is 
so important, is, the water in the Missouri River system is 
being managed in a way that makes no sense at all. You know, 
it's being managed in the way that was anticipated, some 60 or 
70 years ago, when we are moving water out of reservoirs, when 
reservoirs didn't have enough water, so that we can support one 
barge floating downstream that's hauling sand and gravel, a 
low-value cargo. So, you know, we have a situation where the 
management of that river, at this point, doesn't make sense. 
So, we're working on that.
    I talked with the Bismarck folks last night about what can 
be done here to try to minimize the threat of what happened in 
Bismarck happening again, because Bismarck very narrowly missed 
having a very big problem, you know, with massive evacuations 
and so on.
    With respect to Mercer and Emmons, the question is, as I 
have indicated, what can be done here? And we did want to, not 
just look at the Red, the Sheyenne, the James and Missouri; we 
also wanted to look at very significant flooding events in two 
rural areas of North Dakota that came about in a very 
surprising way, a completely unexpected way, and yet, delivered 
a really significant flood threat, with very substantial damage 
in Linton, for example. I was up and toured in Beulah, of 
course, and saw what happened there. You mentioned the park. I 
mean, it looked like moonscape.
    Voice. Right.
    Senator Dorgan. As well as the athletic fields, and so on.
    So, our purpose in being here is to say this. The Corps of 
Engineers is our principal instrument with which to try to 
evaluate and try to make progress in addressing things. Some 
say the Corps takes, you know, anywhere from 50 to 100 years to 
do anything. Well, that's not a complete exaggeration, it does 
take a long time--but, for those that have a view of the Corps 
of never getting anything done, I would say, go to Grand Forks, 
North Dakota, and take a look at a really important structural 
change in that community. It took place over a period of time 
where that community engaged with the Corps, built a first-
class flood-control system, steering that water through that 
city.
    I've been critical of the Corps from time to time, and you 
could probably hear them gritting their teeth from Omaha to 
Washington when I became chairman of the subcommittee that 
funds them.
    I have been critical from time to time, but, I've also 
said, ``If you're involved in a big flood fight, I'll tell you, 
I know who you want on your side and that's the Corps of 
Engineers.'' Right in the middle of that fight, you want the 
Corps with you.
    I also think that if you're engaged in trying to evaluate, 
``What do you do for the future?'' the expertise and the 
ability to think through, strategize, and develop approaches--
you want the Corps of Engineers to be involved in that, as 
well. You also want the State Water Commission and the State, 
as well.
    So, my goal here was to try to evaluate what is happening, 
how the Corps is engaged, how they are engaged with the State 
Water Commission and with the two groups of communities in 
Emmons and Mercer County. Then we will be attentive, as we work 
with the Corps and the State to evaluate what our committee 
might need to be doing to be supportive of what is needed in 
both areas.
    So, that's the reason I came and wanted to have this 
hearing on the record, because this is a State that is not just 
the Red or the Sheyenne or the James or the Missouri; it's 
other areas that have also experienced substantial flooding 
threats with creeks and other rivers.

                         CONCLUSION OF HEARING

    So, thank you all for driving--those of you who have driven 
long distances this morning, thank you for being here. We'll be 
in touch and continue to be in close touch with the Corps of 
Engineers on the plans and events, going forward.
    This hearing is recessed.
    [Whereupon, at 11:32 a.m., Thursday, November 12, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
